No. 20-529

IN THE

Supreme Court of the United States
Richard E. Boggs,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Fourth Circuit

PETITION FOR REHEARING

Richard E. Boggs Pro Se
7001 St. Andrews Rd. #124
Columbia, South Caroline 29212
(803)462-5157

December 15, 2020

TABLE OF CONTENTS

Page
Table of Contents

1

Table of Citations

11

Petition for Rehearing

1

Conclusion

3

Certificate of Unrepresented Party

4

20-529 Petition for Rehearing

i

TABLE OF CITATIONS
CASES

Pase(s)

U.S. v. Lopez, 115 S. Ct. 1624, 1633,
514 U.S. 549 (1995).............................

1

Statutes
5 U.S.C. § 706

passim

26 U.S.C. § 7608

passim

18 USC § 4

2

18 USC § 241

2

18 USC § 242

2

18 USC § 876

2

18 USC § 1341

2

18 USC §1621

2

26 USC § 7214

2

Regulations
27 C.F.R. § 70. 33

3

MISCELLANOITS
Amendment V of the Constitution of the U.S.A......... ..... 1
IRM 9.1.2.2(09-06-2013) (1) - General Authority
to Enforce Internal Revenue Laws and
Related Statutes.....................

20-529 Petition for Rehearing

2

ii

PETITION FOR RE HE ART NO
Pursuant to Sup. Ct. R. 44.2, petitioner Richard R. Boggs (“petitioner” or “Mr.
Boggs”) petitions this court for an order (1) granting rehearing, (2) vacating the
court s Dec. 7, 2020 order denying certiorari, and (3) redisposing of this case by
granting the petition for a writ of certiorari, vacating the judgement, and providing
the review as provided by law under 5 USC § 706.
As grounds for this petition for rehearing petitioner states the following:
1. Petitioner has presented a valid, relevant question of law of the statutory and
constitutional provision(s) cited relating to IRS enforcement authority.
2. As a reviewing court , 5 USC § 706 compels courts review and render a
decision regarding “questions of law”, and “constitutional and statutory
provisions”. This court declared it is the duty of the judiciary “to say what the
law is in U.S. v. Lopez. To date, the petitioner has been denied such review
which is a violation of his right to due process as set forth in Amendment V of
the Constitution of the United States of America.
3. If the investigator, agent, or other internal revenue officer by whatever term
designated... referred to in 26 USC § 7608 differs from “duly commissioned
Special Agent employed by the Internal Revenue Service’s Criminal
Investigation Division”, as declared by “Special Agent” Peter Rae as his job
title in his February 28, 2019 declaration, the petitioner requires this court
(or any court of law) go on record stating so.

1

4. Even the IRS agrees with the petitioner that 26 USC § 7608 “...provides the
initial authority for investigating crimes arising under the Internal Revenue
laws.” See IRM 9.1.2.2(09-06-2013)(l) - General Authority to Enforce
Internal Revenue Laws and Related Statutes.
5. 26 USC § 7608 clearly and unambiguously restrains IRS authority to Subtitle
E (Alcohol, Tobacco, and Certain Other Excise Taxes (§§ 5001 — 5891)) only
since there exist NO “Intelligence Division of the Internal Revenue Service”,
and no statutory language in 26 USC § 7608(b) to extend authority
elsewhere. Therefore, NO authority exists relating to the enforcement of laws
relating to internal revenue other than Subtitle E, making every action on
the part of the IRS, Rae, and his cohorts unlawful and criminal violations of
the petitioner’s rights under 18 USC § 241, 242, 876, 1341, 1621, and 26 USC
§ 7214. This information is now known by this court as required of the
petitioner under 18 USC § 4.
6. In another ongoing case relating to IRC § 7608 currently before the USCA4
(20-1672), not only has the lower court still refused to give this petitioner
proper review of that case but has become emboldened to impose outlandish
sanctions ($5000) against the petitioner for merely insisting the court do its
duty and say what the law is regarding IRC § 7608. That courts failure to
give proper review as required by 5 USC § 706 in case 19-2090 prompted Mr.
Boggs’ petition to this high court in the hope of it exercising supervisory
oversight and reigning in the lower court.

2

It is imperative this court render a decision regarding the statutory
provisions presented for review in order to reign in the lower court and
restore the appearance of fairness and confidence in the judiciary.
7. IRC § 7608(b) lacks implementing regulations as required and present in IRC
§ 7608 (a) at 27 CFR § 70.33.

CONCLUSION
For the foregoing reasons, petitioner Richard E. Boggs petitions this court to
(1) grant rehearing of the order denying his petition for writ of certiorari in this
case (2) vacate the court’s Dec. 7, 2020 order denying certiorari, and (3) grant the
petition for writ of certiorari.

f An4

All Rights Reserved
'
Richard E. Boggs Pro Se
7001 St. Andrews Rd. #124
Columbia, South Caroline 29212
(803)462-5157

3

No. 20-529

IN THE

Supreme Court of the United States
Richard E. Boggs,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Fourth Circuit

CERTIFICATE OF UNREPRESENTED PARTY
I hereby certify that this petition for rehearing is presented in good faith and
not for delay and is restricted to the grounds specified in Rule 44.2.

All Rights Reserved

//

Richard E. Boggs Pro Se
7001 St. Andrews Rd. #124
Columbia, South Caroline 29212
(803)462-5157

December 15, 2020

